Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  FDA’S APPROVAL STATUS OF
 DRUGS PAID FOR BY MEDICAID




                    Daniel R. Levinson
                     Inspector General

                     November 2010
                     OEI-03-08-00500
E X E C U T I V E                     S U          M M A R Y
    E X E C U T I V E                                  S U M M A R Y


                   OBJECTIVE
                   To determine the Food and Drug Administration’s (FDA) approval
                   status of drugs paid for by Medicaid in 2008.


                   BACKGROUND
                   Before a new drug may be legally marketed in the United States, it
                   must be approved by FDA for safety and effectiveness. According to
                   FDA, drugs lacking this approval may pose a significant public health
                   concern because they may not meet FDA standards for safety,
                   effectiveness, quality, and labeling.

                   FDA’s system for collecting and maintaining drug product and approval
                   information is known as the Drug Registration and Listing System
                   (DRLS). As part of the DRLS, FDA maintains a publicly accessible
                   database of currently listed drugs called the National Drug Code (NDC)
                   Directory. The NDC Directory contains the name; the NDC (i.e., a
                   numeric drug identifier); and the approved application number for each
                   listed drug. The DRLS also includes nonpublic files of pending and
                   discontinued NDCs. FDA acknowledges that the databases in DRLS
                   may be inaccurate and incomplete.

                   FDA has additional databases containing approval information. One of
                   these databases contains biological products, such as vaccines and blood
                   (among others), used in the prevention, treatment, or cure of a disease
                   or condition. Another is Drugs@FDA, which is a publicly available FDA
                   database that provides each drug’s approval history, including approved
                   labels (i.e., the official description of a drug product that includes
                   indications for which the drug is approved, states who should take it,
                   and provides safety information), and indicates whether it was approved
                   under a new drug application or an abbreviated new drug application; it
                   does not list any of this information by the NDC.

                   To qualify for Federal payment under Medicaid, drugs generally must
                   be approved by FDA, with certain exceptions. Medicaid payments for
                   prescription drugs totaled approximately $24 billion in 2008. In 2008,
                   the Office of Inspector General (OIG) received a congressional request to
                   examine the FDA approval status of drugs paid for by Medicaid.

                   We used 2008 Medicaid utilization data for prescription drugs, approval
                   and listing data from FDA, and a targeted manual review to accomplish
                   our objective.


 OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   i
E X E C U T I V E                     S U          M M A R Y



                   FINDING
                   Sixty-two percent of drugs paid for by Medicaid in 2008 had an
                   approved application number in the NDC Directory; the remaining
                   38 percent either did not have an approved application number
                   listed or were not in the NDC Directory at all. In 2008, Medicaid paid
                   for prescription drugs associated with 27,143 NDCs. The NDC
                   Directory listed approved application numbers for 16,945 (62 percent) of
                   these NDCs. Medicaid payment for these drugs totaled $17.8 billion in
                   2008. The remaining 38 percent of drugs paid for by Medicaid were
                   either (1) listed in the NDC Directory but did not have an approved
                   application number or (2) not listed in the NDC Directory at all.
                   Twelve percent (3,158) of NDCs paid for by Medicaid in 2008 were listed
                   in the NDC Directory but did not include an approved application
                   number (i.e., the approved application number was “other,” was blank,
                   or could not be determined). More than three-quarters of these NDCs
                   (2,426) had an approved application number listed as “other” in the
                   NDC Directory and were not included in the other FDA databases.
                   Medicaid payments for drugs associated with these 2,426 NDCs totaled
                   $803 million in 2008. Each of the remaining 732 NDCs had (1) an
                   application number of “other” but was included in 1 of FDA’s other
                   databases, (2) an approval status that was blank, or (3) an approval
                   status that could not be determined.

                   A manual review of 25 of the 2,426 NDCs for which the approved
                   application number was “other” (and that were not included in the other
                   FDA databases) indicates that many of the associated drugs may
                   actually be approved products. Fourteen of these twenty-five NDCs
                   appear to be approved products because they are actually included on
                   the drugs’ approved labels; 3 additional NDCs appear to be associated
                   with products approved by FDA; and the remaining 8 of these 25 NDCs
                   do not have approval information in Drugs@FDA.

                   Twenty-six percent (7,040) of the 27,143 NDCs associated with drugs paid
                   for by Medicaid in 2008 were not listed in the NDC Directory. More than
                   half (3,893) of these NDCs were listed in the pending, discontinued, or
                   biological files. The remaining 3,147 NDCs were not listed in any of these
                   files. Therefore, FDA would be unable to determine the approval status
                   based on the NDCs alone. Medicaid payments for these 3,147 NDCs in
                   2008 totaled $1.1 billion.
                   A manual review of 25 of the 3,147 NDCs that were not listed in the NDC
                   Directory or the pending, discontinued, or biological files indicates that

 OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   ii
E X E C U T I V E                     S U          M M A R Y


                   many of these drugs may actually be approved products. Fourteen of the
                   twenty-five unlisted NDCs that underwent manual review were included
                   on approved labels (i.e., the FDA-approved labels for the drugs contained
                   the NDCs under review); the remaining 11 unlisted NDCs did not appear
                   on any approved labels. Eight of these eleven NDCs were associated with
                   drugs that appeared in Drugs@FDA; however, the specific NDC that
                   underwent manual review was not on the approved label.


                   RECOMMENDATION
                   Generally, covered outpatient drugs must be approved by FDA to
                   qualify for Federal payments under Medicaid. Sixty-two percent of
                   drugs paid for by Medicaid in 2008 had an approved application number
                   in the NDC Directory. However, data contained in the NDC Directory
                   were inaccurate and incomplete, thereby preventing us from
                   determining whether FDA approved the remaining 38 percent. As a
                   result, Medicaid could potentially pay for drugs that are not approved.
                   This report highlights the fact that the NDC Directory cannot reliably
                   be used to verify the approval and listing status of drugs paid for under
                   Medicaid.

                   Previous OIG reports also found problems with the accuracy and
                   completeness of the NDC Directory and recommended changes to
                   improve the database. Given the previous recommendations and the
                   potential impact on beneficiary health and the integrity of Medicaid
                   payments, we continue to recommend that FDA:
                   Improve the completeness and accuracy of the NDC Directory
                   FDA could take the following steps:

                            Conduct frequent reviews of its NDC Directory to ensure its
                             completeness and accuracy.

                            Work with the Centers for Medicare & Medicaid Services (CMS)
                             and Congress to seek a legislative or regulatory change that
                             compels manufacturers to list all approved products with FDA
                             before the products become eligible for Medicaid payment. By
                             making payment under Medicaid contingent upon listing,
                             manufacturers would have an increased incentive to ensure that
                             FDA had the most complete and timely information on the
                             products in the NDC Directory.




 OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   iii
E X E C U T I V E                     S U          M M A R Y



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on our draft report, FDA generally agreed with OIG’s
                   recommendation to improve the completeness and accuracy of the NDC
                   Directory. FDA stated that it recognizes that data quality has suffered
                   in the past, agrees that the accuracy and completeness of data in the
                   NDC Directory are imperfect, and remains committed to robust quality
                   improvements. FDA noted that it has already begun implementing
                   several initiatives for evaluating and enhancing the quality of
                   drug-listing data.

                   FDA has agreed that it should work with CMS to examine changes that
                   could further strengthen CMS’s ability to ensure that drugs are listed
                   with FDA prior to reimbursement. FDA stated that it was pleased that
                   OIG, by encouraging collaboration, recognized that both FDA and CMS
                   have a role in identifying drug products potentially eligible for CMS
                   payments.

                   FDA stated that it is important to note some data limitations to ensure
                   that OIG’s findings are not misunderstood. Specifically, FDA pointed
                   out that OIG’s manual review examined a small sample of NDCs, that
                   most inaccuracies did not result in improper Medicaid payments, and
                   that the NDC Directory is now more complete and accurate.

                   OIG acknowledges that our manual review examined only a small
                   number of high-dollar NDCs and that the results from this portion of
                   the analysis cannot be projected to the entire universe of NDCs under
                   review. Although the analysis did not determine whether there were
                   improper Medicaid payments, it did highlight the incomplete and
                   inaccurate nature of the NDC Directory and the subsequent
                   vulnerability for the Medicaid program. Finally, our results reflect the
                   state of the NDC Directory at the time of the review and show that in
                   2008, the NDC Directory did not contain approval or listing information
                   for nearly 40 percent of NDCs paid under Medicaid.

                   In its comments on our draft report, CMS deferred to FDA regarding
                   the response to OIG’s recommendation and stated that it will continue
                   to work with FDA on issues related to drug approval and Medicaid
                   reimbursement.




 OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   iv
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
           Sixty-two percent of drugs paid for by Medicaid in 2008 had an
           approved application number in the NDC Directory; the remaining
           38 percent either did not have an approved application number
           listed or were not in the NDC Directory at all . . . . . . . . . . . . . . . . . . . . 11


         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                    Agency Comments and Office of Inspector General Response . . . 15



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                    A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                    B: Food and Drug Administration Comments . . . . . . . . . . . . . . . 19

                    C: Centers for Medicare & Medicaid Services Comments . . . . . . 25


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
I N T R O D        U C T           I O N
    I N T R O D U C T I O N


                    OBJECTIVE
                    To determine the Food and Drug Administration’s (FDA) approval
                    status of drugs paid for by Medicaid in 2008.


                    BACKGROUND
                    Before a new drug may be legally marketed in the United States, it
                    must be approved by FDA for safety and effectiveness. According to
                    FDA, drugs lacking this approval may pose a significant public health
                    concern because they may not meet FDA standards for safety,
                    effectiveness, quality, and labeling. 1 FDA tracks drug approvals using
                    various databases, but acknowledges that certain of these databases
                    may be inaccurate and incomplete. 2 Previous Office of Inspector
                    General (OIG) reports found problems with the accuracy and
                    completeness of FDA’s drug listing directory, identified factors that
                    contributed to missing or obsolete drug listings, and recommended
                    changes to improve the database. 3
                    To qualify for Federal payments under Medicaid, drugs generally must
                    be approved by FDA, with certain exceptions. 4 In a 2008 letter to OIG,
                    a member of Congress expressed concern that Medicaid pays for drugs
                    that do not meet this criterion and requested that OIG examine the
                    FDA approval status of drugs paid for by Medicaid.
                    FDA Approval and Listing Requirements
                    FDA approval. Section 505(a) of the Federal Food, Drug, and Cosmetic
                    Act (FD&C Act) prohibits new drugs without FDA approval from being
                    introduced into interstate commerce. 5 As part of FDA’s responsibility to
                    protect public health, the agency evaluates new drugs based on


                      1 FDA, FDA’s Concerns About Unapproved Drugs. Accessed at http://www.fda.gov on
                    November 9, 2009.
                      2 FDA’s Response to Representative Edward J. Markey. Accessed at
                    http://www.ascp.com on February 18, 2010.
                      3 OIG, The Food and Drug Administration’s National Drug Code Directory,
                    OEI-06-05-00060, August 2006; and The FDA Prescription Drug File, OEI-03-90-02300,
                    November 1991.
                       4 An example of an exception would be a drug for which the Secretary of Health &
                    Human Services (Secretary) had determined that there was a compelling justification for its
                    medical need and for which a proposed order to withdraw approval had not been issued.
                       5 Pursuant to section 201(b) of the FD&C Act, the circumstances that generally place a
                    product in interstate commerce are commerce between any State or territory and any place
                    outside thereof or commerce within the District of Columbia.



 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID               1
I N T R O D        U C T           I O N


                    scientific evidence obtained from clinical studies and other research
                    conducted by a drug’s sponsor, typically a pharmaceutical company.
                    The sponsor of an innovator (i.e., not generic) drug submits this
                    information to FDA in a new drug application (NDA) (or supplemental
                    NDA, if the sponsor is seeking approval for a new use for the drug),
                    which the agency reviews to assess the drug’s safety and effectiveness
                    for the proposed use. Similarly, the sponsor of a new generic drug
                    submits an abbreviated new drug application (ANDA) to demonstrate
                    that the drug is bioequivalent to an approved drug. Based on the
                    application review, FDA determines whether the drug can be approved
                    to be marketed in the United States. Upon approval, the sponsor
                    receives a letter from FDA with the agency’s approval as well as the
                    approved NDA or ANDA number. 6
                    FDA listing requirements. Section 510(b) of the FD&C Act requires firms
                    (e.g., manufacturers) engaged in manufacturing, preparation,
                    propagation, compounding, or processing drugs to register with the
                    Secretary. 7 In addition, section 510(j) of the FD&C Act requires these
                    firms to list with the Secretary (i.e., report) all of the drugs they produce
                    for commercial distribution. These firms fulfill this requirement by
                    providing drug-listing information to FDA. 8
                    Firms report drug information using national drug codes (NDC). Each
                    listed drug product is assigned a unique 11-digit, 3-segment NDC
                    consisting of labeler, product, and package code segments. 9 The first
                    segment (the labeler code) identifies the firm that labels the drug and is
                    assigned by FDA. The second segment (the product code) identifies the
                    drug formulation, and the third segment (the package code) identifies
                    the package size. The product and package segments are assigned by


                       6 According to a section of FDA’s Web site entitled
                                                                         How Drugs are Developed and
                    Approved, new drugs, like other new products, are frequently under patent protection
                    during development. The patent protects the sponsor’s investment in the drug’s
                    development by giving it the sole right to sell the drug while the patent is in effect.
                    Additionally, under certain circumstances, sponsors may receive a certain period of
                    marketing exclusivity when their drugs are approved. When a patent and exclusivity on
                    brand-name drugs expires or has been successfully challenged, other firms can obtain FDA
                    approval of an ANDA to sell generic versions of the drug.
                      7 Pursuant to 21 CFR § 207.21(a), firms first entering into the production of drugs must
                    register within 5 days after beginning operations.
                      8 Firms that distribute drugs produced by another firm under their own label may opt to
                    submit listing information to FDA. See 21 CFR § 207.20(b).
                      9 A complete NDC may be 10 or 11 digits. Databases that list NDCs typically convert
                    10-digit NDCs to 11-digit NDCs. See 21 CFR 207.35(b)(2).



 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID                2
I N T R O D        U C T           I O N


                    the firms. 10 Each June and December, firms are required to report
                    updated lists of their drugs, including certain information, such as
                    newly introduced drugs, discontinued drugs, and material changes to
                    other listing information previously submitted. 11 As a result of these
                    reporting timeframes, there is up to a two-quarter lag between the time
                    a drug enters the market and the time it is required to be listed with
                    FDA. During this period, FDA may not have any record of the drug.

                    The system FDA uses to collect and maintain drug-listing information
                    from labelers is known as the Drug Registration and Listing System
                    (DRLS). 12 A drug product and its associated NDC may reside in one of
                    the following databases within DRLS:

                             The DRLS Listings Table—includes drug products (including
                              prescription drugs as well as foreign and some domestic
                              over-the-counter products), insulin, and certain biologics that are
                              currently marketed and that have been successfully listed with
                              FDA; this file is the source of the NDC Directory (described below)
                              and includes approved NDA and ANDA numbers for each drug,
                              where applicable.

                             The DRLS Discontinued Drug File—includes discontinued drug
                              products that were listed with FDA but are no longer on the
                              market (as reported by labelers).

                             The DRLS Pending Drug File—includes drug products for which
                              the listing process has begun but is not complete.

                    None of these databases is publicly accessible. However, the NDC
                    Directory, created from the DRLS Listed Drug File, is available for
                    download from FDA’s Web site. 13 The NDC Directory is limited to
                    prescription drugs and insulin products that have been manufactured,
                    prepared, propagated, compounded, or processed by registered
                    establishments for commercial distribution. This database contains the



                       10 21 CFR § 207.35(b)(2)(ii).
                       11 21 CFR §§ 207.21(b) and 207.30 and section 510(j)(2) of the FD&C Act.
                       12 According to FDA, the agency no longer accepts paper submissions for registration
                    (unless a waiver is granted) and has transitioned to the electronic DRLS effective
                    June 1, 2009. Further, FDA states that electronic submissions have enabled it to
                    implement fully automated validations for select data elements as well as allowed firms to
                    voluntarily update their drug listing more often.
                       13 The NDC Directory is available online at http://www.fda.gov.




 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID                3
I N T R O D        U C T           I O N


                    NDC, approved application number, and drug product information for
                    each drug listed. 14
                    FDA has additional databases containing approval information. One of
                    these contains data on biological products (such as vaccines and blood,
                    among others, 15 used in the prevention, treatment, or cure of a disease
                    or condition). 16 In addition, the FDA Approved Drug Products directory
                    (Drugs@FDA) is a publicly available FDA database that provides each
                    drug’s approval history, including the FDA-approved label, and states
                    whether it was approved under an NDA or ANDA; however, it does not
                    list any of this information by NDC. 17
                    Medicaid Prescription Drug Coverage
                    Title XIX of the Social Security Act (the Act) established the Medicaid
                    program to pay for medical and health-related assistance for certain
                    vulnerable and needy individuals and families. This program is
                    administered by States and financed with State and Federal funds.
                    Individual States establish eligibility requirements, benefit packages,
                    and payment rates for their Medicaid programs under broad Federal
                    standards administered by the Centers for Medicare & Medicaid
                    Services (CMS). Currently, all 50 States and the District of Columbia
                    provide coverage for prescription drugs under the Medicaid program.
                    In 2008, Medicaid expenditures for prescription drugs totaled
                    approximately $24 billion. 18, 19



                       14 According to FDA, NDC Directory updates are published online twice monthly.
                       15 According to FDA, biological products are viruses, therapeutic sera, toxins, antitoxins,
                    vaccines, blood, blood components or derivatives, allergenic products, proteins (except for
                    any chemically synthesized polypeptides), or analogous products, or arsphenamine or
                    derivatives of arsphenamine (or any other trivalent organic arsenic compound) applicable to
                    the prevention, treatment, or cure of a disease or condition of human beings.
                       16 Some biological products are also included in the NDC Directory.
                       17 FDA, Drugs@FDA: Frequently Asked Questions. Accessed at http://www.fda.gov on
                    November 9, 2009. Drugs@FDA is searchable by drug name. The Web site contains each
                    drug’s FDA-approved label, which is the official description of a drug product found inside
                    drug packaging that includes indications for which the drug is approved, states who should
                    take it, lists NDCs associated with the approval, lists adverse side effects, and provides
                    other safety information. According to FDA, for some older drugs that have not had labeling
                    supplements approved in recent years, the labeling may not in fact be on Drugs@FDA.
                       18 For this report, our discussion of Medicaid payments and rebates refers only to
                    fee-for-service Medicaid and does not include managed care.
                       19 This amount was calculated using national summary data for 2008 and includes
                    Federal and State payments. Rebates collected by States under the Medicaid drug rebate
                    program (MDRP) were not subtracted from this figure.



 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID                4
I N T R O D        U C T           I O N


                    Medicaid Drug Rebate Program
                    For Federal payment to be available for covered outpatient drugs
                    provided under the MDRP, sections 1927(a)(1) and (b)(1) of the Act
                    mandate that drug manufacturers enter into rebate agreements with
                    the Secretary and pay quarterly rebates to State Medicaid agencies.
                    Generally, covered outpatient drugs must be approved by FDA, with
                    certain exceptions, to qualify for Federal payment. Covered outpatient
                    drugs are defined by section 1927(k)(2) of the Act as those drugs which
                    are treated as prescribed drugs under section 1905(a)(12) and which
                    are:

                             approved for safety and effectiveness as prescription drugs under
                              sections 505 or 507 of the FD&C Act,

                             commercially used or sold in the United States before the date of
                              enactment of the Drug Amendments of 1962 and which have not
                              been the subject of a final determination by the Secretary, or

                             described in section 107(c)(3) of the Drug Amendments of 1962 and
                              for which the Secretary has determined that there is a compelling
                              justification for their medical need and for which a proposed order
                              to withdraw approval has not been issued. 20
                    When a drug manufacturer initially seeks to enter into a rebate
                    agreement with the Secretary, the manufacturer must provide its
                    FDA-assigned labeler code (i.e., the first segment of the NDC) and a
                    complete list of NDCs for drugs marketed by the company. CMS
                    compares this information to information that the manufacturer
                    provides to FDA (e.g., data in the NDC Directory) to determine whether
                    each drug meets the definition of a covered outpatient drug under the
                    MDRP. 21 Therefore, inaccuracies in FDA’s databases could make it
                    difficult for CMS to determine whether drugs should be paid for under
                    the MDRP.

                    Once a manufacturer gains entry into the MDRP, all of its drugs are
                    subsequently covered under the rebate agreement. New drugs from
                    manufacturers with existing rebate agreements are automatically paid
                    for under the MDRP (i.e., the manufacturer does not need to go through
                    an additional approval process). To verify the coverage status of these


                       20 Covered outpatient drugs can also refer to certain biological and insulin products.
                       21 CMS, National Drug Rebate Agreement. Accessed at http://www.cms.hhs.gov on
                    November 9, 2009.



 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID               5
I N T R O D        U C T           I O N


                    new drugs, CMS compiles a list of their associated NDCs twice yearly.
                    CMS provides this list to FDA to determine the drugs’ rebate eligibility
                    and to determine whether they meet the definition of a covered
                    outpatient drug (i.e., they are approved by FDA).
                    Drugs Without FDA Approval
                    According to FDA and CMS, there is no complete list of drugs that do
                    not have FDA approval. FDA relies on DRLS databases (including the
                    NDC Directory), which the agency acknowledges may be incomplete and
                    inaccurate, to determine whether a drug is approved. 22, 23 According to
                    FDA, one reason that the NDC Directory component of DRLS is neither
                    fully accurate nor complete is that drug manufacturers do not always
                    submit the required information. 24 In addition, the presence of an NDC
                    in the NDC Directory does not denote approval. 25
                    Congressional Interest in Drugs Without FDA Approval
                    In a letter sent to CMS and FDA, 26 a member of Congress expressed
                    concern that Medicaid is being billed inappropriately for unapproved
                    drugs. In response, CMS began conducting research on the approval
                    status of certain drugs to determine whether they are eligible for
                    payment under the MDRP. As a result of this effort, CMS has identified
                    products 27 that do not meet the definition of a covered outpatient drug
                    (e.g., drugs that are not approved by FDA) and removed them from the
                    MDRP. In addition, FDA published a compliance policy guide in 2006 to
                    explain how it intends to exercise its enforcement discretion with regard
                    to drugs without approval. 28 According to FDA, this compliance policy

                      22 FDA’s Response to Representative Edward J. Markey. Accessed at

                    http://www.ascp.com on February 18, 2010. OIG, The Food and Drug Administration’s
                    National Drug Code Directory, OEI-06-05-00060, August 2006.
                      23 According to FDA, the agency has implemented a pilot program and other data
                    validations to examine the quality of data in the NDC Directory and compare these data to
                    commercial databases.
                       24 FDA’s Response to Representative Edward J. Markey. Accessed at
                    http://www.ascp.com on February 18, 2010.
                       25 21 CFR § 207.39.
                       26 Senator Charles Grassley.
                                                 Grassley Questions Government Response to the
                    Marketing and Use of Unapproved Drugs. Accessed at http://www.grassley.senate.gov on
                    November 10, 2009.
                       27 For example, in 2009, CMS sent letters to State Medicaid agencies and the
                    manufacturers of sodium hyaluronate and ergotamine informing them that the agency was
                    removing specific NDCs from the MDRP because these drugs did not meet the definition of
                    a covered outpatient drug, i.e., they did not have the appropriate FDA approval status.
                      28 FDA, Marketed Unapproved Drugs – Compliance Policy Guide, § 440.100. Accessed at
                    http://www.fda.gov on November 9, 2009.



 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID               6
I N T R O D        U C T           I O N


                    guide emphasizes that illegally marketed drugs must receive FDA
                    approval. 29 Finally, as previously mentioned, a member of Congress
                    requested that OIG examine the FDA approval status of drugs paid for
                    by Medicaid.
                    Related OIG Work
                    Previous OIG reports examined the completeness and accuracy of FDA’s
                    NDC Directory and identified factors that contribute to missing or
                    obsolete product listings. 30, 31 The most recent report (August 2006)
                    found that the NDC Directory was incomplete (primarily because of
                    insufficient reporting by drug manufacturers) and inaccurate (because it
                    included drugs that were no longer on the market or were listed in
                    error). The report also found that FDA’s lack of oversight contributed to
                    inaccurate and incomplete information in its NDC Directory.

                    Another recent OIG report found that there was a potential problem
                    with Medicaid payment for drugs that do not have FDA approval. 32 The
                    report’s objective focused on the accuracy of drug categorizations for
                    Medicaid rebates. However, a manual review of 75 NDCs with
                    questionable drug categorizations revealed that over 40 percent were
                    associated with unapproved drugs. Based on the findings of that report,
                    OIG recommended that CMS work closely with FDA to identify drugs
                    not approved by FDA for safety and effectiveness. In its response, CMS
                    stated that it has worked and will continue to work closely with FDA to
                    identify payments for drugs not meeting the definition of a covered
                    outpatient drug.


                    METHODOLOGY
                    Scope
                    This review determined the approval status of drugs paid for by
                    Medicaid in 2008. We examined only fee-for-service Medicaid payments
                    for prescription drugs in the MDRP, i.e., we excluded Medicaid managed
                    care and over-the-counter drugs from this analysis. Further, we

                      29 In general, FDA has used a risk-based enforcement approach to marketed unapproved
                    drugs that includes efforts to identify illegally marketed drugs, prioritization of those drugs
                    according to potential public health concerns, and regulatory followup.
                      30 OIG, The Food and Drug Administration’s National Drug Code Directory,
                    OEI-06-05-00060, August 2006.
                       31 OIG,     The FDA Prescription Drug File, OEI-03-90-02300, November 1991.
                       32 OIG,     Accuracy of Drug Categorizations for Medicaid Rebates, OEI-03-08-00300,
                    July 2009.



 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID                 7
I N T R O D        U C T           I O N


                    examined only approval status according to information available in the
                    NDC Directory and Drugs@FDA.
                    Data Sources
                    We reviewed relevant laws, guidelines, regulations, and policies to
                    obtain information about procedures related to the approval status of
                    and payment for drugs in the MDRP.

                    CMS data. We obtained 2008 State utilization files for the MDRP from
                    CMS’s Web site in June 2009. 33 Using these files, we obtained Medicaid
                    expenditures and utilization data for 27,143 prescription drug NDCs in
                    2008. Medicaid payment for these NDCs totaled $23.8 billion. See
                    Appendix A for a more detailed description of the data collection and
                    analysis.

                    FDA data. We downloaded FDA’s NDC Directory (i.e., the publicly
                    accessible file created from the DRLS Listed Drug File) in August 2009.
                    The file was updated on July 31, 2009, and contains the name, NDC,
                    and the approved application number (assigned by FDA) for each listed
                    drug. A number in the approved application number field signifies that
                    the product has been approved by FDA for marketing based upon a
                    review of its safety and effectiveness. An “other” in this field signifies
                    that listing information for the product did not include an approved
                    application number; this product may not have been approved for safety
                    and efficacy by FDA; or the data may have been omitted. 34
                    We also obtained the pending and discontinued files from DRLS, as well
                    as a file containing biological products from FDA, in June 2009. 35 These
                    files contain the drug names, NDCs, and associated
                    labelers/manufacturers. We also downloaded two lists of approved
                    biological products from FDA’s Web site. The lists contained the names
                    and approved application numbers for certain biological products. 36 We
                    also used FDA’s online searchable database Drugs@FDA during our


                       33 These files were downloaded from http://www.cms.hhs.gov in June 2009 and contain
                    State-reported expenditure and utilization data by NDC. These data are not validated by
                    CMS.
                       34 During the period covered by this review, the application number for biologics was
                    identified as “other” in the NDC Directory. However, these products are now identified as
                    biological licensing agreement (BLA), according to FDA.
                       35 The NDC Directory used for this review was updated in July 2009. The pending,
                    discontinued, and biological files from FDA were updated in May 2009.
                      36 FDA approves biologics with BLAs. Many approved biologics are considered covered
                    outpatient drugs under Medicaid.



 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID               8
I N T R O D        U C T           I O N


                    manual review. The database contains a drug’s approval status and
                    history, is organized by product name, and is not searchable by NDC.
                    Data Analysis
                    NDC approval and listing. We matched the 27,143 NDCs listed in the
                    aggregated 2008 State Medicaid utilization file against FDA’s NDC
                    Directory to identify the number of NDCs reimbursed under the MDRP
                    that (1) had an approved application number in the NDC Directory,
                    (2) were listed in the NDC Directory but did not have an approved
                    application number, and (3) were not listed in the NDC Directory at all.
                    NDCs listed in the Directory without an approved application number
                    generally had an application number of “other” indicating that the drug
                    is not approved by FDA, may be subject to an efficacy and safety review,
                    and/or may be one for which FDA lacks sufficient data.

                    We also determined how many NDCs for which the application number
                    was “other” were listed in the DRLS pending or discontinued files or
                    FDA’s biological file or were associated with drugs on FDA’s approved
                    biological products lists. 37 For NDCs not listed in the NDC Directory,
                    we determined how many were listed in the DRLS pending and
                    discontinued files or FDA’s biological file.

                    Manual reviews. We conducted two manual reviews: one for NDCs with
                    an application code of “other” and one for NDCs that were not listed in
                    the NDC Directory or other DRLS files. From the group of NDCs that
                    had an application code of “other” and were not included in the other
                    FDA files under review, we selected the 25 associated with the highest
                    Medicaid expenditures for a manual review. We reviewed the approval
                    status and history on these drugs using Drugs@FDA to identify possible
                    reasons for their lack of approval or determine whether they were
                    misclassified by FDA.

                    We conducted a similar manual review of the 25 NDCs with the highest
                    Medicaid reimbursement that were not listed in the NDC Directory or
                    other DRLS files. We reviewed available drug product information in
                    Drugs@FDA to identify the characteristics of these drugs and determine
                    whether they were included in this database.


                      37 FDA’s biological file lists products by NDC. In addition to identifying this database,
                    we identified two lists of approved biological products. FDA’s lists of approved biological
                    products contain the biological product names and approved BLAs; they do not include
                    NDCs. For this analysis, we identified all NDCs that had an approval code of “other” that
                    were associated with drug names on one of these lists.



 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID                 9
I N T R O D        U C T           I O N


                    Limitations
                    We did not verify the accuracy of CMS’s Medicaid utilization data or any
                    of FDA’s files (i.e., DRLS files, biological files, lists of approved
                    biological products). The results of this review reflect the status of
                    FDA’s databases at the time they were updated (i.e., July 2009 for the
                    NDC Directory and May 2009 for the pending, discontinued, and
                    biological files). The results of the manual review (which examined only
                    a small number of high-expenditure NDCs) cannot be projected to the
                    entire universe of NDCs.

                    This review identifies the number of drugs that did not have an
                    approved application number in the NDC Directory; it does not
                    determine the appropriateness of Medicaid payment for these drugs.
                    Additionally, we did not verify that the drugs with approved application
                    numbers listed in the NDC Directory had actually been approved by
                    FDA.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   10
                                     F I N D I N G

                                                                                                  In 2008, Medicaid paid for
      Sixty-two percent of drugs paid for by Medicaid                                             prescription drugs associated with
      in 2008 had an approved application number in                                               27,143 NDCs (numeric drug
         the NDC Directory; the remaining 38 percent                                              identifiers) under the MDRP. The
          either did not have an approved application                                             NDC Directory listed approved
                      number listed or were not in the                                            application numbers for
                                                                                                  16,945 (62 percent) of these NDCs.
                                  NDC Directory at all
                                                                                                  Medicaid payment for these NDCs
                                                          totaled $17.8 billion, or 75 percent of 2008 MDRP expenditures for
                                                          prescription drugs. The remaining 38 percent were (1) listed in the
                                                          NDC Directory but did not have an approved application number or
                                                          (2) not listed in the NDC Directory at all. See Table 1 for additional
                                                          information on drugs paid for by Medicaid.
Table 1. Approval and Listing Status of NDCs Paid for by Medicaid in 2008
                                                                                                                                          Number of         Medicaid
  Approval and Listing Status in NDC Directory
                                                                                                                                             NDCs     Payment Amount


                                       Application number is an approved new drug application or abbreviated new drug
                                                                                                                                             16,945    $17,808,828,801
                                       application.



                                       Application number is “other”—NDC is not found in DRLS pending file, discontinued
                                                                                                                                              2,426      $803,201,005
                                       file, FDA biological file, or list of approved biological products.
        Listed in NDC Directory




                                       Application number is “other”—NDC is in DRLS pending file, discontinued file, FDA
                                       biological file or NDC is associated with drugs on FDA list of approved biological                      380      $1,542,121,481
                                       products. 38



                                       Application number is blank or approval status cannot be determined.                                    352       $924,301,493



                                       NDC is not listed in NDC Directory but is included in the DRLS pending file,
                                                                                                                                              3,893     $1,564,048,798
    Not Listed in




                                       discontinued file, or FDA biological file.
    Directory
    NDC




                                       NDC is not listed in the NDC Directory, DRLS pending file, discontinued file, or FDA
                                                                                                                                              3,147     $1,117,824,229
                                       biological file.


        Total                                                                                                                                27,143    $23,760,325,807
Source: OIG analysis of Medicaid utilization data, FDA DRLS databases, and biological files.
Note: Totals may not add up because of rounding.




                                                            38 Twenty of these NDCs were in the pending file, 21 were in the discontinued file, and
                                                          339 were in the biological file or were associated with approved biological products.



                                  OEI-03-08-00500         F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID                    11
F   I N D I N G


                      Twelve percent of drugs paid for by Medicaid were listed in the NDC
                      Directory but did not include an approved application number
                      In 2008, Medicaid paid for 3,158 NDCs (12 percent of NDCs under
                      review) that were listed in the NDC Directory but did not have an
                      approved application number (i.e., the approved application number
                      was “other,” was blank, or could not be determined). Medicaid
                      payments for these drugs totaled $3.3 billion (14 percent of Medicaid
                      expenditures for prescription drugs) in 2008.

                      More than three-quarters of these NDCs (2,426) had “other” listed in
                      the approved application number field in the NDC Directory and were
                      not included in the other FDA databases. These NDCs did not appear
                      in the pending, discontinued, or biological files or were not associated
                      with drugs that were on FDA’s list of approved biological products.
                      Medicaid payments for drugs associated with these 2,426 NDCs totaled
                      $803 million in 2008.

                      Each of the remaining 732 NDCs had (1) an application number of
                      “other” but was included in one of FDA’s other databases, (2) an
                      approval status that was blank, or (3) an approval status that could not
                      be determined.

                      The majority of these NDCs that underwent a manual review appear to be
                      associated with approved application numbers. A manual review of 25 of
                      the 2,426 NDCs that were listed as “other” (and that were not included
                      in the other FDA databases) indicates that 14 appear to be approved
                      products. Searching Drugs@FDA revealed that although the
                      application numbers for these 14 NDCs were “other” on the NDC
                      Directory, they were included on the drugs’ approved labels and appear
                      to be approved products. The information in the NDC Directory was
                      likely inaccurate as it did not contain the appropriate approval
                      information found in another FDA database.
                      Three additional NDCs in this manual review appear to be associated
                      with products approved by FDA. However, FDA’s databases did not
                      contain enough information to verify approval. Two of these NDCs are
                      associated with approved products; however, the specific NDCs are not
                      on the approved labels. For the other NDC, Drugs@FDA contains an
                      approved application number; however, there is no labeling information
                      to verify the approval for the particular NDC.

                      The remaining eight NDCs do not have any approval information
                      available on Drugs@FDA, meaning the drugs potentially do not have
                      FDA approval. Based on information obtained from manufacturer

    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   12
F   I N D I N G


                      Web sites, these drugs were enzyme replacement products, cough
                      suppressants, antihistamines, and pain relievers.
                      Twenty-six percent of drugs paid for by Medicaid were not listed in the NDC
                      Directory; however, more than half of these drugs were listed in other FDA
                      databases
                      Over one quarter (7,040) of the 27,143 NDCs associated with drugs paid
                      for by Medicaid in 2008 were not listed in the NDC Directory. Medicaid
                      expenditures for these drugs totaled $2.7 billion (11 percent of Medicaid
                      prescription drug expenditures) in 2008.

                      More than half (3,893) of these NDCs were listed in the pending,
                      discontinued, or biological files. The remaining 3,147 NDCs were not
                      listed in any of these databases. Therefore, FDA would be unable to
                      determine their approval status based on the NDCs alone. Medicaid
                      payments for these 3,147 NDCs in 2008 totaled $1.1 billion.

                      The majority of NDCs that underwent a manual review appear to be
                      associated with approved application numbers. A manual review of 25 of
                      the 3,147 NDCs that were not listed in the NDC Directory or the
                      pending, discontinued, or biological files indicates that many of these
                      drugs may actually be approved products, further illustrating the
                      incomplete nature of the NDC Directory.

                      According to Drugs@FDA, 14 of the 25 unlisted NDCs that underwent
                      manual review were included on approved labels (i.e., the
                      FDA-approved labels for the drugs contained the NDCs under review).
                      These 14 drugs were associated with approved drug applications, even
                      though they are not listed in the NDC Directory. For 8 of the
                      11 remaining NDCs, the associated drug name appeared in Drugs@FDA
                      but the specific NDC that underwent manual review was not included
                      on the approved label (i.e., the drug itself is approved by FDA, but the
                      specific NDC under review is not included on the approved label).




    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   13
R   E C O        M M E N D A T                      I O N
       R E C O M M E N D A T I O N

                      Generally, covered outpatient drugs must be approved by FDA to
                      qualify for Federal payments under Medicaid. Sixty-two percent of
                      drugs paid for by Medicaid in 2008 had an approved application number
                      in the NDC Directory. However, data contained in the NDC Directory
                      were inaccurate and incomplete, thereby preventing us from
                      determining whether FDA approved the remaining 38 percent. Twelve
                      percent of NDCs under review did not have an approved application
                      number listed in the NDC Directory, and an additional 26 percent were
                      not listed in the NDC Directory at all. As a result of this inaccurate and
                      incomplete information, Medicaid could potentially pay for drugs that
                      are not approved. Without accurate approval and listing information, it
                      is impossible to determine whether these drugs were appropriately paid
                      for under the MDRP.

                      This report highlights the fact that the NDC Directory cannot reliably
                      be used to verify the approval and listing status of drugs paid for under
                      the MDRP. Previous OIG reports also found problems with the
                      accuracy and completeness of the NDC Directory and recommended
                      changes to improve the database. Given the previous recommendations,
                      the potential impact on beneficiary health and the integrity of Medicaid
                      payments, we continue to recommend that FDA:
                      Improve the completeness and accuracy of the NDC Directory
                      FDA could take the following steps:

                               Conduct frequent reviews of its NDC Directory to ensure its
                                completeness and accuracy
                                According to FDA, the agency does not verify manufacturer data
                                and does not follow up with manufacturers that do not list their
                                data. FDA could routinely review all listed NDCs that do not have
                                an approved application number to identify drugs that may be
                                approved but just missing approval data. FDA could use the NDC
                                Directory in conjunction with its other databases (e.g.,
                                Drugs@FDA) to identify the approval and listing status of certain
                                drugs. Further, FDA could use some of its other databases as well
                                as national compendia to acquire readily accessible drug product
                                data.
                               Work with CMS and Congress to seek a legislative or regulatory
                                change that compels manufacturers to list all approved products with
                                FDA before the products become eligible for Medicaid payment
                                A legislative or regulatory change requiring manufacturers to list
                                all approved products with FDA prior to being accepted into the

    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   14
R   E C O        M M E N D A T                      I O N


                                MDRP would reduce Medicaid payment for drugs lacking FDA
                                approval. By making payment under MDRP contingent upon
                                listing, manufacturers would have an increased incentive to
                                ensure that FDA has the most complete and timely information on
                                the products in the NDC Directory.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its comments on our draft report, FDA generally agreed with OIG’s
                      recommendation to improve the completeness and accuracy of the NDC
                      Directory. FDA stated that it recognizes that data quality has suffered
                      in the past, agrees that the accuracy and completeness of data in the
                      NDC Directory are imperfect, and remains committed to robust quality
                      improvements. FDA noted that it has already begun implementing
                      several initiatives for evaluating and enhancing the quality of
                      drug-listing data.

                      FDA has agreed that it should work with CMS to examine changes that
                      could further strengthen CMS’s ability to ensure that drugs are listed
                      with FDA prior to reimbursement. FDA stated that it was pleased that
                      OIG, by encouraging collaboration, recognized that both FDA and CMS
                      have a role in identifying drug products potentially eligible for CMS
                      payments. FDA then cited its collaboration with CMS on several
                      related measures, including developing a list of drugs that are not
                      properly listed with FDA and identifying the regulatory status of listed
                      drug products. In addition, FDA stated that it will identify new
                      approaches it and CMS may use to reduce inappropriate reimbursement
                      for drugs under Medicaid.

                      FDA also stated that it is crucial to recognize that its efforts to enhance
                      data quality remain limited by certain regulatory constraints, e.g.,
                      product-listing changes are required to be reported to FDA only twice
                      yearly, which means listed information can quickly become inaccurate
                      unless manufacturers voluntarily provide more frequent updates. To
                      that end, FDA noted that it has implemented an electronic reporting
                      system for drug product information that may encourage manufacturers
                      to update their listings more frequently. FDA stated that clarifying its
                      authority to remove listings that are incorrect or out-of-date would give
                      it an efficient, powerful tool for prompting compliance and correcting
                      errors or omissions.



    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   15
R   E C O        M M E N D A T                      I O N


                      Additionally, FDA stated that it is important to note some data
                      limitations to ensure that OIG’s findings are not misunderstood.
                      Specifically, FDA pointed out that OIG’s manual review examined a
                      small sample of NDCs, that most inaccuracies did not result in improper
                      Medicaid payments, and that the NDC Directory is now more complete
                      and accurate than at the time of OIG’s review.

                      OIG acknowledges that our manual review examined only a small
                      number of NDCs and that the results from this portion of the analysis
                      cannot be projected to the entire universe of NDCs under review. Given
                      the time-intensive nature of these manual reviews, we focused on a
                      purposive sample of NDCs associated with the highest Medicaid
                      expenditures. Additionally, although the analysis did not determine
                      whether there were improper Medicaid payments, it did highlight the
                      incomplete and inaccurate nature of the NDC Directory and the
                      subsequent vulnerability for the Medicaid program. As outlined in the
                      limitations on page 10, we acknowledge that the NDC Directory
                      undergoes frequent updates and that it may thus become more complete
                      and accurate over time. However, our results reflect the state of the
                      NDC Directory at the time of the review and show that in 2008 the NDC
                      Directory did not contain approval or listing information for nearly
                      40 percent of NDCs paid under Medicaid. FDA’s comments are
                      provided in Appendix B.

                      In its comments on our draft report, CMS deferred to FDA regarding
                      the response to OIG’s recommendation and stated that it will continue
                      to work with FDA on issues related to drug approval and Medicaid
                      reimbursement. CMS’s comments are provided in Appendix C.




    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   16
I N T R O D        U C T           I O N
    A P P E N D I X ~ A

                    Detailed Methodology
                    Redbook. Redbook is a national drug compendium published by a
                    private company (Thomson Healthcare) using data from such sources as
                    drug manufacturers and the Food and Drug Administration (FDA). 39
                    National drug compendia provide access to drug-pricing and drug
                    product data. We obtained drug product and classification data from
                    the first-quarter 2009 edition of Redbook.

                    Centers for Medicare & Medicaid Services data. We downloaded 2008
                    State Medicaid utilization data from the Centers for Medicare &
                    Medicaid Services’ (CMS) Web site in June 2009. This file contains
                    36,767 national drug codes (NDC) representing total Medicaid
                    expenditures and utilization by NDC for 47 States in 2008. 40 Based on
                    CMS’s recommendation, this review included only prescription drugs.
                    We used drug product data from Redbook to exclude all nonprescription
                    NDCs (i.e., over-the-counter drugs). NDCs for which there was no drug
                    product data in Redbook were excluded from our analysis. As a result,
                    there were 27,143 NDCs for prescription drugs associated with
                    Medicaid payment in 2008. Medicaid payment for these NDCs totaled
                    $23.8 billion in 2008. See Table A-1 for a detailed description of
                    Medicaid utilization data.
                    Table A-1. 2008 Medicaid Utilization Data
                                                                                                    Number of        Medicaid
                       Category
                                                                                                       NDCs       Expenditures

                       NDCs in State Medicaid utilization files                                        36,767   $24,133,357,264

                       NDCs in State Medicaid utilization files and with
                                                                                                       32,701   $24,070,132,410
                       Redbook drug product data

                       NDCs in Medicaid utilization files identified by
                                                                                                       27,143   $23,760,325,807
                       Redbook as prescription drugs

                    Source: Office of Inspector General analysis of 2008 State Medicaid utilization data.

                    FDA data. We downloaded FDA’s NDC Directory in August 2009. This
                    version of the database was updated as of July 31, 2009. The NDC
                    Directory contains over 159,000 unique NDCs. FDA staff also provided



                       39 Publishers of compendia do not perform formal data reviews for every new release.

                    Further, Redbook is not limited to products with FDA’s approval.
                       40 The remaining four States were not included in this analysis because they did not
                    have any utilization data available on CMS’s Web site at the time of download or did not
                    participate in the Medicaid drug rebate program.



 OEI-03-08-00500    F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID                        17
A   P   P E N D       I X ~          A


                      the pending file and discontinued file as well as a database containing
                      biological products.




    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   18
    A P PEN D                                    x         B


     Food and Drug Administration Comments




                   .........
              ..,.'~


          (     ~ DRPARTMENTOF HEALTH AND HUMAN SERVICES
          ';::::lzt-                            _____"                   _._ ___________
                                                                                                          Food and Drug Adl1)lnlstraUon
                                                                                                          Sl1vor Spring MD .20993




                               DATE:          August 2,2010

                               TO:            Deputy Inspector General

                               FROM:          Plincipal Deputy Commissioner of Food and Drugs

                               SUBJECT:       FDA's General Comments to OIG's Draft Report entitled, FDA's Approval Status
                                              a/Drugs Paid/or by Medicaid, OEI-03-08-00500

                               FDA is providing the attached general and technical comments to the Office of Inspector
                               General's draft report entitled: FDA's Approval Status 0/ Drugs Paid/or by Medicaid, OEI-03­
                               08-00500.

                               FDA appreciates the opportunity to review and comment on this draft report before it is
                               published.




                                                                              /S/
                                                                    Joshua M. Sharfstein, M.D. 

                                                                    Principal Deputy Commissioner of Food and Drugs 



                               Attachment




OEI·03·08·00500                      FDA's ApPROVAL STATUS OF DRUGS PAID FOR BY MEDICAID                                                  19
A   P   P E N D       I X ~          B




    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   20
A   P   P E N D       I X ~          B




    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   21
A   P   P E N D       I X ~          B




    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   22
A   P   P E N D       I X ~          B




    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   23
A   P   P E N D       I X ~          B




    OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   24
     A P PEN 0                            x          c

     Centers for Medicare & Medicaid Services Comments



            /~.VI~.~   "
        (     ~. DEPARTMENT OF HEALTH                    & HUMAN      SERV;")C~~..:   r f;' ,   r ...   Oentels for Medicar. & Medicaid Services

            ,~~..                                                                      .,         ".
                                                                                                        Administrator
                                                                        ZOIO AUG 21 ~.M 10: 11          Washington. DO 20201

                       DATE:

                       to:·            Daniel R. LevinSon 

                                     : Inspector(;enenil 

                                                                  /S/
                       FROM: 	        Donald M. Berwick, M.D. 

                                      Administrator 


                       SUBJECT:        Office of Inspector General (OlG) Draft Report: FDA's Approval Status of Drugs 

                                      'Paid for by Medicaid (OEI-03-08-00500) 



                       Thank you for the opportunity to revie~ and comment on the qIG Draft Report entitled, "FDA's
                       Approval Status ofDrilgs paid for by Medicaid" (OEI-03-08·00500). The. OlO was asked to
                       determine the Food and Drug Administration's (FDA) approval status ofdrugs paid for by Medicaid
                       in 2008. The OlO found that 62 percent of drugs paid for by Medicaid in 2008 had an approved
                       application number in the National Drug Code (NDC) Directory; the remaining 38 percent either did
                       not have an approved application nwnber listed or were not in the NDC Directory at all. This report
                       highlights the fact that the NDe Directory cannot be readily used to verify the approval and listing
                       status of drugs under the MediCaid drug rebate program. The OIG had one recommendation that we
                       address below.                                               . '

                       OIG RecOmmendation
                       'f!!e DIG recommends·that the FDA Continue to improve the completeness and accuracy ofthe NDC
                       Directory. OlO suggests that the .FDA could take the following steps to ensure that the NDC
                       Directory is accurate and complete:

                           • 	 Conduct frequent 'reviews of its NDC Directory to ensure its completeness and accuracy.
                           • 	 Work with the Centers for Medicare & Medicaid Services (CMS) and Congress to seek a
                               'legislative or regulatory change that compels manufacturers to list all approved products with
                                FDA before the products become eligible for Medicaid payment By making payment under
                                Medicaid contingent upon listing, manufacturers would have increased incentives to ensure
                                that FDA has the most complete and timely information on the products in the NDC
                                Directory.

                       CMS Response

                    eMS defers the response to this recommendation to the FDA. CMS will continue to work with the
                    FDA on t4ese important issues to ensure protection of Medicaid payments and beneficiaries. eMS
                   Iooksforward to providing·input on any legislative or regulatory change that the FDA implements in
                   "order to' colllpel manufacturer;; ~o list all of their approved products with the FDA.

                       C~s thanks the OIG for the oPI?0rtunity to review and comment on this draft report.




OEI·03·08·00500            FDA's ApPROVAL STATUS OF DRUGS PAID FOR BY MEDICAID                                                                     25
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director, Prescription Drug Pricing
                  Unit.

                  Edward K. Burley served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Roman Strakovsky; other central office staff who contributed include
                  Kevin Manley.




OEI-03-08-00500   F D A’ S A P P R O VA L S TAT U S   OF   D R U G S PA I D   FOR BY   MEDICAID   26
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
